Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



MEDICARE COMPLIANCE REVIEW
  OF CHRISTUS SANTA ROSA
     HOSPITAL FOR THE
  PERIOD JANUARY 1, 2010,
  THROUGH JUNE 30, 2012



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General


                                                      February 2014
                                                      A-06-12-00068
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                          INTRODUCTION

 Christus Santa Rosa Hospital did not fully comply with Medicare requirements for billing
 inpatient short stays, resulting in overpayments of at least $1,192,275 over 2½ years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. For calendar year (CY) 2011,
Medicare paid hospitals $151 billion, which represents 45 percent of all fee-for-service
payments; therefore, the Office of Inspector General must provide continual and adequate
oversight of Medicare payments to hospitals. Using computer matching, data mining, and data
analysis techniques, we identified hospital claims that are at risk for noncompliance with
Medicare billing requirements. For this review, we focused on inpatient stays of 1 day or less
(short stays). Our previous work at other hospitals found that a significant proportion of
inpatient short stays would more appropriately be billed as outpatient or outpatient with
observation services, which generally result in lower reimbursement than inpatient stays.

OBJECTIVE

Our objective was to determine whether Christus Santa Rosa Hospital (the Hospital) complied
with Medicare requirements for billing inpatient short stays.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for beneficiaries after they are discharged from hospitals. Medicare Part B provides
supplementary medical insurance for medical and other health services, including coverage of
hospital outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers
Medicare.

CMS contracts with Medicare Administrative Contractors (MACs) to, among other things,
process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.




Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                       1
Medicare Requirements for Hospital Claims and Payments

Medicare provides Part A coverage for medically ordered inpatient hospital services. Factors to
be considered when making the decision to admit include such things as: (1) the severity of
signs and symptoms exhibited by the patient, (2) the medical predictability of something adverse
happening to the patient, and (3) the need for diagnostic studies that appropriately are Part B
outpatient services to assist in assessing whether the patient should be admitted. 1

CHRISTUS SANTA ROSA HOSPITAL

The Hospital is an accredited, comprehensive inpatient and outpatient services hospital serving
South Texas. According to CMS’s National Claims History data, Medicare paid the Hospital
approximately $10 million for 1,790 inpatient short-stay claims with dates of service from
January 1, 2010, through June 30, 2012 (audit period).

HOW WE CONDUCTED THIS REVIEW

Our review covered $1,987,423 in Medicare payments to the Hospital for 342 inpatient short-
stay claims with dates of service during the audit period that we identified as potentially at risk
for billing errors. We selected a stratified random sample of 100 claims for review. We
submitted all sampled claims to an independent medical review contractor to determine whether
the services were medically necessary. This report focuses on one selected risk area and does
not represent an overall assessment of all claims submitted by the Hospital for Medicare
reimbursement. Appendix A contains the details of our audit scope and methodology, Appendix
B contains our sample design and methodology, and Appendix C contains our sample results and
estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                                 FINDINGS

The Hospital complied with Medicare inpatient billing requirements for 30 of the 100 short-stay
claims we reviewed. However, the Hospital did not fully comply with Medicare inpatient billing
requirements for the remaining 70 claims.

The Social Security Act (the Act) states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member” (§ 1862(a)(1)(A)).


1
 The Medicare Benefit Policy Manual (Publication No. 100-02), chapter 1, § 10, “Inpatient Hospital Services
Covered Under Part A.”




Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                                    2
In addition, the Act precludes payment to any provider of services without information necessary
to determine the amount due the provider (§ 1815(a)).

The Act also states that payment for services furnished to an individual may be made only to
providers of services that are eligible and only if, “with respect to inpatient hospital services . . .
which are furnished over a period of time, a physician certifies that such services are required to
be given on an inpatient basis for such individual’s medical treatment . . . .” (§ 1814(a)(3)).

Federal regulations state: “Medicare Part A pays for inpatient hospital services . . . only if a
physician certifies” the need for such services (42 CFR § 424.13(a)).

The Hospital incorrectly billed Medicare Part A for inpatient beneficiary stays that should have
been billed as outpatient or outpatient with observation services (61 errors). Specifically, our
independent medical review contractor determined that inpatient admission was not medically
necessary for these beneficiaries. Additionally, the Hospital incorrectly billed Medicare for
DRG codes that were not supported by the medical record (7 errors) or the medical record did
not include a signed and dated physician order (2 errors). As a result of these errors, the Hospital
received overpayments of $446,289. 2

Based on our sample results, we estimated that the Hospital received at least $1,192,275 in
overpayments from Medicare. The Hospital did not provide a cause for the overpayments
because it did not agree that it had made these billing errors.

                                          RECOMMENDATIONS

We recommend that the Hospital:

    •    refund to the Medicare contractor $1,192,275 in estimated overpayments for the audit
         period and

    •    strengthen controls to ensure full compliance with Medicare requirements for billing
         short stays.

CHRISTUS SANTA ROSA HOSPITAL COMMENTS

In written comments on our draft report, the Hospital disagreed with our first recommendation.
Specifically, the Hospital disagreed with our findings on 56 of the 70 inpatient short-stay claims
and stated: “Immediately upon learning of the medical contractor’s results, CSRH [the Hospital]
had the claims at issue re-reviewed. . . . Independent physician experts concluded that CSRH


2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the MAC
prior to the issuance of our draft report.




Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                                        3
had properly billed 56 of the 70 claims that were deemed noncompliant by the OIG.” The
Hospital added that it intends to dispute the claims at issue through the MAC appeals process.

Additionally, the Hospital disagreed with the decision to extrapolate the results. It stated: “As
acknowledged in the draft report, some portion of the alleged overpayment may be properly
billable under Medicare Part B. . . . As such, the amount of the actual overpayment based on the
sample claims reviewed is yet to be determined.” The Hospital requested that we not refer the
estimated overpayment to the MAC for collection. The Hospital stated that an MAC may only
base a notice of overpayment on extrapolated results when “there has been a prior determination
of sustained or high level of payment error or documentation that educational intervention has
failed to correct the payment error.”

Concerning our second recommendation, the Hospital discussed steps it had taken to ensure that
its inpatient short-stay billings are consistent with the existing regulations.

The Hospital’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical review contractor to determine whether the claims
met medical necessity requirements. The contractor examined all of the medical records and
documentation originally submitted and carefully considered this information to determine
whether the Hospital billed the inpatient claims according to Medicare requirements. Based on
the contractor’s conclusions, we determined that 61 claims should have been billed as outpatient
or outpatient with observation services, 7 claims were not supported by the medical records, and
2 claims did not include a signed and dated physician order in the medical record.

In response to the Hospital’s concerns regarding its ability to rebill for certain services that were
denied as part of this review, we acknowledge its comments; however, the rebilling issue is
beyond the scope of our audit. After the completion of our audit, CMS issued the final
regulations on payment policies (78 Fed. Reg. 160 (Aug. 19, 2013)). The Hospital should
contact its MAC for rebilling instructions. In addition, we maintain that the statistical sampling
and estimation techniques planned and used for this review are statistically valid methodologies
that we use to identify overpayments. The statutory provision cited by the Hospital that prohibits
the use of extrapolation applies only to MACs; it does not apply to OIG. Therefore, we continue
to recommend that the Hospital refund to the Medicare program $1,192,275 in estimated
overpayments for the audit period.




Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                        4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

AUDIT SCOPE

Our review covered $1,987,423 in Medicare payments to the Hospital for 342 inpatient short-
stay claims with dates of service from January 1, 2010, through June 30, 2012, that we identified
as potentially at risk for billing errors. We selected a stratified random sample of 100 claims for
review.

We evaluated compliance with selected inpatient short-stay billing requirements and submitted
all sampled claims to an independent medical review contractor to determine whether the
services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to inpatient short
stays because our objective did not require an understanding of all internal controls over the
submission and processing of claims. We established reasonable assurance of the authenticity
and accuracy of the data obtained from the National Claims History file, but we did not assess
the completeness of the file.

This report focuses on one selected risk area and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

Our fieldwork included contacting the Hospital, located in San Antonio, Texas, from January
through July 2013.

AUDIT METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient short-stay claim data from CMS’s National Claims
        History file with dates of service during our audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims that
        were potentially at risk for noncompliance with selected Medicare requirements;

    •   selected a stratified random sample of 100 claims totaling $754,583 for detailed review
        (Appendix B);

    •   reviewed available data from CMS’s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the medical record documentation provided by the Hospital to support the
        sampled claims;


Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                         5
    •   used an independent medical review contractor to determine whether the 100 sampled
        claims met medical necessity requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to attempt to determine
        the underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments;

    •   used the results of the sample review to estimate the Medicare overpayments to the Hospital
        (Appendix C); and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                        6
                 APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

Population

The population consisted of selected inpatient short stays paid to the Hospital for claims with
dates of service during our audit period.

Sampling Frame

We extracted the Hospital’s inpatient short-stay claim data from CMS’s National Claims History
file. The database contained 1,790 claims with dates of service during our audit period. We
performed data analysis to identify claims we felt were most at risk for improper payment. As a
result, the sampling frame included 342 claims totaling $1,987,423.

Sample Unit

The sample unit was a claim.

Sample Design

We used a stratified random sample. We stratified the sample frame into three strata based on
the payment amounts.

Sample Size

We selected 100 claims for review as follows:

                                                          Claims in Sample        Claims in
     Strata           Payment Amount Range
                                                               Frame               Sample
        1             $0.00 through $4,344.99                   141                   33
        2           $4,345.00 through $8,512.99                 155                   33
        3               $8,513.00 and over                        46                  34
                              TOTAL                             342                  100

Source of Random Numbers

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

Method of Selecting Sample Units

We consecutively numbered the claims within each stratum. After generating the random
numbers for each stratum, we selected the corresponding frame items.




Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                        7
Estimation Methodology

We used the OIG/OAS statistical software for stratified random samples to estimate the total
amount of Medicare overpayments paid to the Hospital during the audit period.




Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                     8
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                            Sample Results

                                                                   Number of
                                                                   Incorrectly      Value of
             Frame       Value of  Sample           Value of      Billed Claims   Overpayments
Stratum       Size        Frame     Size             Sample         in Sample      in Sample
   1          141         $490,840    33            $120,102            25           $91,666
   2          155          875,041    33             180,070            26           133,680
   3           46          621,542    34             454,412            19           220,943
 Total        342       $1,987,423   100            $754,583            70          $446,289

                                     Estimated Overpayments
                      (Limits Calculated for a 90-Percent Confidence Interval)

                                  Point Estimate            $1,318,479
                                  Lower Limit               $1,192,275
                                  Upper Limit               $1,444,683




Medicare Compliance Review of Christus Santa Rosa Hospital (A-06-12-00068)                       9
            APPENDIX D: CHRISTUS SANTA ROSA HOSPITAL COMMENTS 





                 Janua ry 8, 2014

                 Patricia Wheeler
                 Regional Inspector General for Audit Services
                 Office of Audit Services, Region VI
                 1100 Commerce Street, Room 623
                 Dallas, Texas 75242

                 Re: 	   DRAFT- Medicare Compliance Review of CHRISTUS Santa Rosa Hospital for the 

                         Period January 1, 2010 through June 30, 2012. (Report Number: A-06-12-00068) 


                 Dear Ms. Wheeler:

                 I write to respond to the Office of Inspector General (OIG) draft report titled: Medicare
                 Compliance Review of CHRISTUS Santa Rosa Hospital for t/1e Period January 1, 2010, throug!J
                 June 30, 2012. CHRISTUS Santa Rosa 1-lospita l (CS RH) appreciates the opportunity to
                 comment on the OIG's draft report We are committed to complying with all regulations and
                 standards governing federal health care programs and welcome the opportunity to comment on
                 the report and embrace opportunities to improve our programs i11 order to minimize the risk of
                 non-compliant claims_

                 Background:

              OIG conducted a national initiative focused on certain risk areas for hospitals across the
              country_ CSRH was not selected for review based on any improper billing or compliance
              practices. The OIG 's national initiative has resulted in the publication of Medicare Compliance
              reports for nearly 70 hospitals across the country .

              With regard to CSRH, the OIG focused its review on the Medicare requirements for billing
              inpatient sho11-stays. The audit covered 342 inpatient short-stay claims ($ 1,987,423 in Medicare
              payments) which the OIG had identifie d as potentially at risk for billing errors. The O IG drew a
              sample of those claims ( 100)1 and retained a medical review contractor to determine whether
              the services for t hose claims where medically necessary.

             OIG Findings:

             The OIG draft report found that CSRH complied with Medicare inpatient-billing requirements for
             30 of the 100 short-stay claims reviewed . It fUJ1her concluded that CSRH did not fully comply
             with Medicare inpatient--billing requirements for the remaining 70 claims because it incorrectly


             1
              The d raft report does no! indicate how !he OIG identified certain claims l o be ·at risk for bilfin{J errors." The lack of
             such information pmven!s CSRH from adequately analyzing the sampling melhodology used in lhis case.

             919    Hidden Ridge Drive    I liVing, TX I 75038




MedicCO'e Compliance Review ofChristus Santa Rosa Hospital (A-06- 12-00068)                                                                 10
              billed Medicare Part A for inpatient beneficiary stays that should have been billed as outpatient
              or outpatient with observation services.

              Based on these f indings, the OIG concluded that CSRH received an overpayment of $446,289.
              However, the OIG specifically acknowledged that the hospital may be able to bill Medicare Part
              B for all services that would have been reasonable and necessary had the beneficiary been
              treated as an outpatient. Thus, the actua l amount of overpayment is yet to be determ ined.

              As will be discussed in the section to follow, the uncertainty of the overpayment i s relevant
              because the O IG findings include an extrapolated damages calctnation of $ 1,192,275.

              CSRH Respo nse to OIG Findings:

              CSRH does not a9ree with all of t he OIG's findings . Immediately upon le arn ing of the medical
              review contractor's results, CSRH had t he claims a t issue re-reviewed by an independent,
              nationally recognized consultant which is made up of phys ician re viewers who are expert in
              Medicare rules and regulations. These independent physician experts concluded that CSRH
              had properly billed SCi of the 70 claims that were deemed noncompliant by the OIG. Consistent
              with those findings , CSRH ma intains that only 14 of the 100 claims reviewed were improperly
              billed.

              CSRH will refund the overpayment due on the Medicare Part A claims; and, to the extent
              possible, it will re-subm it the 14 claims for payment under Medicare Part B. With regard to t he
              remaining 56 claims. CSRH requests that the OIG reconsider those fi ndings for the reasons set
              forth below.

              According to the CSRI-I experts, the govern ment's medical review contractor's process appears
              inconsistent with Generally Accepted Govern ment Aud iting standards. Most notably, CSRH's
             consultant identified a pattern of inconsistency in the application of the Medicare billing
             standards. Specifically, the Hospital's expert reviewers identified claims with similar patient
             histories which had inconsistent findings--i.e., some claims were found to be properly payable
             while others were not Further, there may have been instances where the government's
             reviewers substituted their judgment for the rea l time judgment of the physician caring for t he
             patient , even though the medical dt1Cllmentation did not support it. Finally, t here appear to be
             instances where the government 's reviewers stated that the record lacked proper orcJers when
             in fact the orders did exist.

             As noted in earlier correspondence with the audit team, CSRH welcomes the opportunity to
             meet and discuss each of the issues listed above. To the extent t hat is not possible, and the
             OIG draft f indings become f inal, CSR H intends to dispute the claim:; through the Medivcll e
             Administrative Contractor (MAC) appeal process.

             Finally, CSRH requests that the OIG reconsider its damages calcu lation based on extrapolation.
             As acknowledged in t11e draft report, some po1tion of the alleged over payment may be properly
             billable under Medicare Part B. Further, as noted above, some of the de nied claims are, in fact,
             properly payable. As such, the amount of the actual overpayment based on the sample claims


             919 Hidden Hidge Drive I Irving, TX I 75038




MedicCO'e Compliance Review ofChristus Santa Rosa Hospital (A-06- 12-00068)                                       11
                 reviewed is yet to be determined. Extrapolating from a sample with such uncertainty is not
                 appropriate.

                 To the extent that the OIG determines to include the extrapolated damages amount in its final
                 report, CSRH requests that the extrapolated damages calculations not be referred to the MAC
                 for collection. A MAC may only base a notice of overpayment on extrapolated damages where
                 there has been a prior determination of sustained or high level of payment error or
                 documentation that educational intervention has failed to correct the payment error. 2 In this
                 case, there has been no such finding.

                 CSRH Controls to Ensure Medicare Compliance:

                 CSRH is committed to taking the steps necessary to ensure that its inpatient short stay billings
                 are consistent with the existing regulations. To tt1at end, CSRH has put in place the procedures
                 discussed below.

                 All patients are screened by Case Management or the House Supervisor for level of care
                 appropriateness upon admission and prior to bed assignment. After discharge, any Medicare
                 short- stays are re-screened prior to billing by Case Managers to ensure that they meet either
                 Milliman or lnterQual inpatient criteria. Additionally, a hospital billing check is in place to stop
                 any Medicare short-stays from being billed without first having been subjected to a review for
                 medical necessity. If Llpon screening, the case meets inpatient criteria, Case Management will
                 approve it for billing. If it does not, CSRH will exclude the inpatient charges from the bill,

              The hospital has also contracted w ith a nationally known consultant to assist Case Management
              and our physicians with appropriate level of care determinations. The consultant is available to
              CSRH at any point in the process (pre, during and post hospitali:r.ation) and provides physician­
              level medical necessity guidance.

              Thank you for allowing us to respond to the draft report . CSRH recognizes its obligations to
              ensure that proper bil.ling safeguards are in place and appreciates the opportunity to learn from
              the issues highlighted by this review.



                                     I.;        ;1
             sir;rely, _ / / (
             .r JlV..._A--
                   .. >              1v
                                           v-4-"
                                            I
                                               ·-'-···· ----·-... . _
             JoHn F1nley, Esq., MPH
             v/1, Corporate Compliance and Privacy
             CHRISTUS Health




             2
                 See 42 U.S.C. § 1395<ldd (f)(3); Program Integrity Manuill Chapler 8 §8.4.1.2 - The Purpose of Stalislical Sampling.

             919 Hidden Ridge Drive         I Irving, TX I 75038




MedicCO'e Compliance Review ofChristus Santa Rosa Hospital (A-06- 12-00068)                                                             12
